APPENDIX A

Rel: April 26, 2019

Notice: This opinion is subject to formal revision before publication in the advance
sheets of Southern Reporter. Readers are requested to notify the Reporter of Decisions,
Alabama Appellate Courts, 300 Dexter Avenue, Montgomery, Alabama 36104-3741 ((334) 2290649), of any typographical or other errors, in order that corrections may be made before
the opinion is printed in Southern Reporter.

SUPREME COURT OF ALABAMA
OCTOBER TERM, 2018-2019
____________________
1170738
____________________
Monroe County Commission
v.
A.A. Nettles, Sr. Properties Limited and Eula Lambert Boyles
Appeal from Monroe Circuit Court
(CV-17-900097)

SELLERS, Justice.
A.A. Nettles, Sr. Properties Limited ("Nettles") and Eula
Lambert Boyles (hereinafter referred to collectively as "the

1170738
plaintiffs")1 filed in the Monroe Circuit Court an action
seeking

to

quiet

title

to

a

right-of-way

that

had

been

conveyed by Alabama Railroad Company ("the railroad") to the
Monroe County Commission ("the Commission") for use as a
recreational trail in accordance with the National Trails
System Act ("the Trails Act"), 16 U.S.C. § 1247.
court

quieted

title

Commission appealed.
I.

in

favor

of

the

The trial

plaintiffs.

The

We affirm.

Background -- The Trails Act

"As background, the Interstate Commerce Act of
1887, ch. 104, 24 Stat. 379, and the Transportation
Act of 1920, ch. 91, 41 Stat. 477-78, grant the
Interstate Commerce Commission, now the Surface
Transportation Board ('STB'), exclusive authority
over the construction, operation and abandonment of
the Nation's rail lines. In order for a railroad
company to terminate rail service, the railroad
company must obtain the consent of the STB. To
obtain consent, the railroad company may apply for
permission to discontinue service, seek permission
to terminate through abandonment proceedings, or
file a request for an exemption from abandonment
proceedings. Once the STB consents, the rail line is
1

The complaint to quiet title identifies Nettles, a
plaintiff, as an Alabama family limited partnership doing
business in the State of Alabama and as lessee of "the lands
herein described." The trial court's order, discussed infra,
quieted title to the right-of-way in both Nettles and Eula.
Because, however, it appears that Eula holds sole title to the
right-of-way and the right-of-way runs across property owned
by Eula, we identify her as the owner of the property, where
appropriate.
2

1170738
removed from the national transportation system and
the STB's jurisdiction comes to an end.
"In 1983, Congress amended the National Trails
System Act to include an alternative process for
railroad companies to abandon rail lines. 16 U.S.C.
§ 1247(d)[2]. This process, known as 'railbanking,'
preserves corridors or rights-of-way not in use for
train
service
for
possible
future
use
as
recreational trails.
"In order for a rail line to be 'railbanked,'
the railroad company must first file an abandonment
application under 49 U.S.C. § 10903, or a notice of
exemption from that process under 49 U.S.C. § 10502.
Once an abandonment application, or request for an
exemption, is filed, a party interested in
railbanking
may
request
the
issuance
of
a
Certificate of Interim Trail Use ('CITU') (in
abandonment application proceedings) or a Notice of
Interim Trail Use ('NITU') (in abandonment exemption
proceedings). If the railroad company indicates that
it is willing to negotiate a railbanking and interim

2

16 U.S.C. § 1247(d) states, in part:

"Consistent with the purposes of [the Railroad
Revitalization and Regulatory Reform Act of 1976],
and in furtherance of the national policy to
preserve established railroad rights-of-way for
future reactivation of rail service, to protect rail
transportation corridors, and to encourage energy
efficient transportation use, in the case of interim
use of any established railroad rights-of-way
pursuant to donation, transfer, lease, sale, or
otherwise in a manner consistent with this chapter,
if such interim use is subject to restoration or
reconstruction for railroad purposes, such interim
use shall not be treated, for purposes of any law or
rule of law, as an abandonment of the use of such
rights-of-way for railroad purposes."
3

1170738
trail use agreement, the STB issues the CITU or
NITU. The issuance of the CITU or NITU preserves
the STB's jurisdiction over the rail line and allows
the railroad company to discontinue operations and
remove track and equipment while the parties
negotiate a railbanking and interim trail use
agreement.
"The NITU or CITU affords the railroad company
180 days in which to negotiate a railbanking and
interim trail use agreement with the third party. If
an agreement is reached, the NITU (or CITU)
automatically authorizes the interim trail use. If
the STB takes no further action, the trail sponsor
then may assume management of the right-of-way,
subject only to the right of a railroad to reassert
control of the property for restoration of rail
service. If no agreement is reached, the railroad
company may proceed with the abandonment process."
Burnett

v.

United

States,

139

Fed.

Cl.

797,

801-02

(2018)(internal citations omitted).
II.

Facts and Procedural History

In May 1997, the railroad conveyed, by quitclaim deed,
real property to Charles W. Boyles, retaining for itself a
right-of-way over Charles's property for the maintenance and
operation of a railroad.3

After Charles died, his wife Eula

3

The railroad retained, among other things, "a perpetual
easement, rights of way, railroad tracks, track fixtures,
tunnel structure, wire lines, signal lines, pipelines, wires,
cables, apparatus, and other appliances presently existing for
the operation of the railroad"; the right to maintain the
right-of-way; and the right to restrict Charles's activities
so as to prevent him from interfering with or damaging
railroad operations or property.
4

1170738
inherited the property subject to the railroad's right-of-way;
Nettles leases the property from Eula.
In

March

2013,

the

railroad

filed

with

the

Surface

Transportation Board ("the STB") a "Notice of Exemption,"
seeking to abandon approximately 7.42 miles of rail line,
which included the right-of-way over the property owned by
Eula and leased by Nettles. To support its invocation of the
exemption, the railroad certified that it had not run trains
over the line for at least two years. The railroad published
its Notice of Exemption in the Federal Register on March 21,
2013. By letter dated March 22, 2013, the Commission filed
with the STB a request for a public-use condition, as well as
a request for interim trail use pursuant to the Trails Act.
In that request, the Commission indicated its willingness to
assume responsibility for the management, legal liability, and
payment of taxes for the right-of-way, and it acknowledged
that use of the right-of-way for trail purposes was subject to
possible future reconstruction and reactivation of the rightof-way for rail service.

The railroad, in turn, filed a

response indicating its willingness to negotiate with the
Commission for interim trail use. On April 19, 2013, the STB

5

1170738
issued a Notice of Interim Trail Use ("NITU") permitting the
Commission

and

the

railroad

to

negotiate

a

trail-use

agreement. After the railroad and the Commission reached an
agreement, the railroad quitclaimed its interest in the rightof-way to the Commission.

The plaintiffs thereafter filed a

complaint to quiet title to the right-of-way; they sought a
judgment declaring that Eula owned the right-of-way in fee
simple, as well as an injunction prohibiting the Commission
from proceeding with the trail project pending resolution of
the quiet-title action.
On December 20, 2017, the trial court conducted a bench
trial.

At the close of the plaintiffs' evidence and again at

the close of all the evidence, the Commission moved for a
judgment as a matter of law on the basis that the plaintiffs'
quiet-title action was federally preempted.

The trial court

denied those motions.
On January 10, 2018, the trial court entered a final
order quieting title to the right-of-way in the plaintiffs.
The trial court, applying Alabama property law, held that the
right-of-way had terminated by operation of law before the
railroad purported to convey its interest in the right-of-way

6

1170738
to the Commission. Accordingly, the trial court enjoined the
Commission from proceeding with the recreational trail on the
property owned by Eula and leased by Nettles.

The Commission

thereafter filed a motion requesting that the trial court
alter, amend, or vacate its judgment or, in the alternative,
order

a

new

trial

on

the

basis

of

federal

preemption.

Following a hearing, the trial court denied that motion. This
appeal followed.
III.
1.

Discussion

Federal Preemption

The Commission contends that the trial court lacked
jurisdiction to hold that the right-of-way had been abandoned
under state law because, its says, the STB has exclusive
jurisdiction over abandonments of regulated rail lines.

"We

review de novo whether the trial court had subject-matter
jurisdiction." Solomon v. Liberty Nat'l Life Ins. Co., 953 So.
2d

1211,

1218

(Ala.

2006).

It

is

undisputed

that

the

Interstate Commerce Commission Termination Act ("ICCTA") vests
the STB with exclusive jurisdiction over "(1) transportation
by rail carriers" and "(2) the construction, acquisition,
operation, abandonment, or discontinuance of spur, industrial,

7

1170738
team, switching, or side tracks, or facilities" and states
that "the remedies provided under this part with respect to
regulation of rail transportation are exclusive and preempt
the remedies provided under Federal or State law." 49 U.S.C.
§ 10501(b). The STB has explained that there are two broad
categories

of

state

regulation

that

are

categorically

preempted:
"Indeed, the courts have found two broad
categories of state and local actions to be
preempted regardless of the context or rationale for
the action. The first is any form of state or local
permitting or preclearance that, by its nature,
could be used to deny a railroad the ability to
conduct some part of its operations or to proceed
with activities that the [STB] has authorized.
"Second, there can be no state or local
regulation of matters directly regulated by the
[STB]--such as the construction, operation, and
abandonment of rail lines; railroad mergers, line
acquisitions, and other forms of consolidation; and
railroad rates and service.
"Both types of categorically preempted actions
by a state or local body would directly conflict
with exclusive federal regulation of railroads.
Accordingly, for those categories of actions, the
preemption analysis is addressed not to the
reasonableness of the particular state or local
action, but rather to the act of regulation itself.
"In other words, state and local laws that fall
within one of the precluded categories are a per se
unreasonable interference with interstate commerce.
For such cases, once the parties have presented
8

1170738
enough evidence to determine that an action falls
within one of those categories, no further factual
inquiry is needed.
"For state or local actions that are not
facially preempted, the section 10501(b) preemption
analysis requires a factual assessment of whether
that action would have the effect of preventing or
unreasonably
interfering
with
railroad
transportation."
CSX Transp., Inc.--Petition for Declaratory Order, STB Finance
Docket

No.

34662

(STB

May

3,

2005)(internal

citations

omitted).
"Despite its breadth, the jurisdiction of the STB does
not foreclose every conceivable state claim." Sunflour R.R. v.
Paulson, 670 N.W.2d 518, 523 (S.D. 2003).

Rather, "[i]n all

pre-emption cases, and particularly in those in which Congress
has

'legislated

...

in

a

field

which

the

States

have

traditionally occupied,' ... we 'start with the assumption
that the historic police

powers of the States were not to be

superseded by the Federal Act unless that was the clear and
manifest purpose of Congress.'" Medtronic, Inc. v. Lohr, 518
U.S. 470, 485 (1996) (quoting Rice v. Santa Fe Elevator Corp.,
331 U.S. 218, 230 (1947)).

The United States Supreme Court

has explained this assumption: "We rely on the presumption
because respect for the States as 'independent sovereigns in
9

1170738
our federal system' leads us to assume that 'Congress does not
cavalierly preempt state-law causes of action.'"

Wyeth v.

Levine, 555 U.S. 555, 565 n. 3 (2009) (quoting Lohr, 518 U.S.
at 485).

"The presumption thus accounts for the historic

presence of state law but does not rely on the absence of
federal regulation."

555 U.S. at 566 n. 3.

The idea is that,

although the STB has "exclusive and preemptive jurisdiction,"
this expansive jurisdiction is given for a specific reason: to
prevent attempts by states to impose economic regulation on
rail transportation.

In other words, the goal of the STB is

to limit, if not prevent, state regulation of interstate rail
transportation to avoid the pitfalls and nuances of laws
enacted

by

each

state's

legislature

that

would

deter

a

railroad's ability to operate efficiently and the possibility
of divergent regulations from each state.
In this case, we are not faced with an Alabama regulation
attempting to regulate rail transportation and to limit the
use of rail property to deter interstate commerce. Rather, we
are dealing with state property laws that existed before the
advent of railroads, and we are asked to consider the impact
of a railroad right-of-way, reserved in a quitclaim deed, on

10

1170738
the rights of an adjoining property owner when the purpose of
the right-of-way has lapsed by nonuse and the holder of the
right-of-way attempts to transfer its interest to create a new
use, not envisioned by the reservation of rights in the
initial instrument conveying the right-of-way.
In

Ruckelshaus

v.

Monsanto

Co.,

467

U.S.

986,

1001

(1984), the United States Supreme Court stated: "[W]e are
mindful of the basic axiom that '"[p]roperty interests ... are
not created by the Constitution. Rather, they are created and
their

dimensions

are

defined

by

existing

rules

or

understandings that stem from an independent source such as
state law."'" (Quoting Webb's Fabulous Pharmacies, Inc. v.
Beckwith, 449 U.S. 155, 161 (1980), quoting in turn Board of
Regents v. Roth, 408 U.S. 564, 577 (1972).)

In Oregon ex rel.

State Land Board v. Corvallis Sand & Gravel Co., 429 U.S. 363,
378 (1977), the United States Supreme Court stated that,
"[u]nder

our

federal

system,

property

ownership

is

not

governed by a general federal law, but rather by the laws of
the several States." See also Davies Warehouse Co. v. Bowles,
321 U.S. 144, 155 (1944)("The great body of law in this
country which controls acquisition, transmission, and transfer

11

1170738
of property, and defines the rights of its owners in relation
to the state or to private parties, is found in the statutes
and decisions of the state."). It is clear then that, even in
a regime of federal preemption, determining the ownership of
real property requires a review of state law.
2.

State-Law Quiet-Title Action

As indicated, the plaintiffs filed a complaint seeking to
quiet title to the right-of-way.

It is helpful to remember

that the right-of-way was created by reservation in a 1997
quitclaim deed and that the railroad, as the holder of the
easement,

attempted

to

convey

the

right-of-way

also

by

quitclaim deed. As a matter of Alabama law, the precise
language and nature of the rights reserved under the 1997
quitclaim deed are critical in assessing whether the railroad
had any right or title to effectively quitclaim its interests
in

the

right-of-way

determined

that,

to

under

the
the

Commission.
quitclaim

The

deed,

trial
the

court

railroad

reserved for itself a right-of-way for the maintenance and
operation of a railroad only; that the railroad had changed
the character of the right-of-way from a railroad right-of-way
to

a

right-of-way

for

recreational

12

trail

use;

that

the

1170738
railroad had abandoned the right-of-way when it failed to
rebuild a burnt train trestle and removed the rails and cross
ties from the right-of-way; and that the right-of-way was thus
extinguished by operation of law. Accordingly, the trial court
concluded that, because the right-of-way had been extinguished
by operation of law, the railroad had nothing to convey to the
Commission.

See Benedict v. Little, 288 Ala. 638, 643, 264

So. 2d 491, 494 (1972)(noting that, under Alabama law, "[a]
quitclaim deed can convey nothing more than what the grantor
actually owns"). The analogy used by the trial court is the
same analogy employed by a federal claims court assessing a
claim under the Miller Act, 28 U.S.C. § 1491. See, e.g.,
Burnett, 139 Fed. Cl. at 804:
"To determine whether a Fifth Amendment takings
has occurred in a rails-to-trails case, the Court
follows a three-part analysis established by the
United States Court of Appeals for the Federal
Circuit. First, the Court must determine who owned
the land at issue at the time of the takings, and
specifically, whether the railroad company owned the
land in fee simple or held only an easement.
Second, if the railroad company owned only an
easement, the Court must determine whether the terms
of the easement are limited to use for railroad
purposes, or whether the terms include use as a
public recreational trail. Third, if the railroad
company's easement is broad enough to encompass
recreational trail use, the Court must determine
whether the easement terminated prior to the alleged
13

1170738
takings, so that the property owner held a fee
simple estate unencumbered by easement at the time
of the takings."
(Citations omitted.)
Thus, as did the trial court, we look to what

the

railroad owned at the time it executed and delivered the
quitclaim

deed

undisputedly

to

ceased

the

Commission.

using

the

When

right-of-way

the

railroad

for

railroad

purposes, under Alabama property law, its right-of-way across
Eula's property lapsed by nonuse.

When the right-of-way

lapsed by nonuse, the right-of-way was extinguished, and the
property

burdened

by

the

right-of-way

vested

in

Eula

automatically, by operation of law. Thus, the quitclaim deed
conveyed nothing to the Commission because the railroad, at
the time of conveyance, had nothing to transfer. In other
words, the railroad's inaction in failing to use its right-ofway terminated the right-way-of, divesting it of any further
interest

in

the

property.

Further,

the

right-of-way

was

limited to use for railroad purposes; even under decisions
from the federal courts, conveying a railway easement for
another use allows the adjoining property owner to look to
state law to determine the owner's rights in the property.

14

1170738
Under Alabama law, one holding an easement cannot change
the character of that easement. Blalock v. Conzelman, 751 So.
2d 2 (Ala. 1999). Neither can the easement holder "enlarge
upon an easement for other purposes."

Roberts v. Monroe, 261

Ala. 569, 577, 75 So. 2d 492, 499 (1954).

An easement, then,

specifically for railroad purposes precludes the easement
holder from expanding the use of the easement to anything
other than railroad operations.

Alabama has specifically

addressed railroad easements and has determined that they are
limited and cannot be expanded.

See Nashville, Chattanooga &

St. Louis Ry. v. Karthaus, 150 Ala. 633, 43 So. 791 (1907);
West v. Louisville & Nashville R.R., 137 Ala. 568, 34 So. 852
(1903).
terminates

"[A]n
as

easement

soon

as

given

the

for

purpose

a

specific

ceases

to

purpose

exist,

is

abandoned, or is rendered impossible of accomplishment." Tatum
v. Green, 535 So. 2d 87, 88 (Ala. 1988).

Thus, under the

facts of this case, the trial court did not err in applying
state-law principles to conclude that the right-of-way had
been extinguished by operation of law, causing title to the
right-of-way to revert to Eula. "In an action to quiet title,
when the trial court hears evidence ore tenus, its judgment

15

1170738
will be upheld unless it is palpably wrong or manifestly
unjust."

Woodland Grove Baptist Church v. Woodland Grove

Cmty. Cemetery Ass'n, Inc., 947 So. 2d 1031, 1036 (Ala. 2006).
We cannot say that the trial court's determination here was
wrong, much less unjust.
3.

Mobile & Gulf R.R. v. Crocker, 455 So. 2d 829 (Ala.
1984)
The Commission relies on Mobile & Gulf R.R. v.

Crocker,

455 So. 2d 829 (Ala. 1984), to support its argument that the
trial court lacked subject-matter jurisdiction to determine
that the railroad had abandoned its right-of-way over Eula's
property.

In Crocker, the landowners sought a judgment

declaring that a railroad had abandoned its right-of-way over
their property. At the time the landowners filed their statecourt action, the railroad had not initiated any proceedings
with the Interstate Commerce Commission ("ICC"), now the STB,
seeking to abandon the right-of-way; thus, the ICC had not
authorized the abandonment of the right-of-way.

The railroad

filed, among other things, a motion to dismiss the landowners'
declaratory-judgment action on the basis that the trial court
lacked subject-matter jurisdiction over it.

16

The trial court

1170738
denied

that

motion.

This

Court

granted

the

railroad

permission to appeal pursuant to Rule 5, Ala. R. App. P.

The

Crocker Court reversed the judgment of the trial court,
concluding that the ICC had exclusive jurisdiction over the
abandonment

of

the

right-of-way;

that

the

ICC

had

not

authorized the abandonment of the right-of-way; and that the
trial court, thus, lacked jurisdiction to hear the landowners'
action.
In this case, the Commission's reliance on Crocker is
misplaced;

Crocker

is

easily

distinguished,

not

only

procedurally, but also by changes in the law since Crocker was
decided. Consider the manner in which the rights-of-way were
created. The right-of-way easement in Crocker was created by
a condemnation action. In this case, the right-of-way easement
was reserved in a quitclaim deed when the railroad conveyed
its

property

to

Eula's

predecessor

in

title.

Because

a

condemnation action is a much more aggressive means to create
a right-of-way and requires not only judicial action but also
a showing of necessity, the lapse of a right-of-way by nonuse
is much harder to establish in such a case and requires
judicial scrutiny. By merely reserving the right-of-way in a

17

1170738
quitclaim deed and limiting it to railroad use, establishing
lapse by nonuse in such a case involves a lower threshold,
especially because the railroad had reserved the right-of-way
without any court action and the right-of-way would lapse by
nonuse without a specific finding or the necessity of any
court action. Thus, reserving a right-of-way in a quitclaim
deed is a nonjudicial method by which a railroad can establish
an easement, and it stands to reason that such an easement
could be undone without judicial action. Condemnation, on the
other hand, is a much more involved judicial process such that
any

lapse

in

use

and

establishing

nonuse

would

require

judicial action to vacate the right-of-way and change its use.
Additionally, in Crocker, both the landowners and the railroad
requested a judgment declaring whether the right-of-way had
been abandoned.

As noted, the railroad had never invoked the

jurisdiction of the ICC seeking permission to abandon the
right-of-way. In other words, the declaratory-judgment action
in Crocker would have required the trial court to specifically
invade the ICC's jurisdiction to determine whether the rightof-way had been abandoned.

Here, neither the plaintiffs nor

the Commission sought a judgment concerning whether the right-

18

1170738
of-way had been abandoned. Rather, the plaintiffs merely filed
a statutory action seeking to quiet title to the right-of-way
because the Commission had represented, in conjunction with
the trails project, that it held fee title to the right-ofway.

Section 6-6-540, Ala. Code 1975, provides:
"When any person is in peaceable possession of
lands, whether actual or constructive, claiming to
own the same, in his own right or as personal
representative or guardian, and his title thereto,
or any part thereof, is denied or disputed or any
other person claims or is reputed to own the same,
any part thereof, or any interest therein or to hold
any lien or encumbrance thereon and no action is
pending to enforce or test the validity of such
title, claim, or encumbrance, such person or his
personal
representative
or
guardian,
so
in
possession, may commence an action to settle the
title to such lands and to clear up all doubts or
disputes concerning the same."

See also Dake v. Inglis, 239 Ala. 241, 243, 194 So. 673, 674
(1940)("The purpose of the [quiet-title] proceeding is not to
invest the court with jurisdiction to sell or dispose of the
title to the land, but merely to determine and settle the same
as between the complainant and the defendants.").
In entertaining the plaintiffs' quiet-title action, the
trial court had before it various documents, including the
decision of the STB granting the NITU based on the railroad's
certification that it had not used the right-of-way for at

19

1170738
least two years. In other words, the trial court had an
admission by the railroad as the former title holder affirming
that it had ceased to use the right-of-way for railroad
purposes. The trial court clearly had jurisdiction to decide
the nature and extent of the right-of-way under Alabama law
and to quiet title in Eula. Accordingly, unlike Crocker, where
the jurisdiction of the ICC had not been invoked, the STB had
already acted in this case, and the trial court merely relied
on the STB's findings to quiet title to the right-of-way.
Finally, we note that Crocker was decided in July 1984,
shortly after Congress amended the Trails Act in March 1983 to
include interim trail use as an alternative process by which
railroad companies could abandon rail lines. Contrary to the
Commission's

interpretation

of

Crocker,

i.e.,

that

the

plaintiffs' quiet-title action falls exclusively within the
STB's jurisdiction, we note that the STB has routinely issued
decisions refusing to intervene in actions involving property
disputes that can be resolved under state law. See, e.g.,
Allegheny Valley R.R.–-Petition for Declaratory Order–-William
Fiore, STB Finance Docket No. 35388 (STB April 25, 2011)
(denying a railroad's request for a declaratory order that
state-law claims and remedies concerning the size and extent
of a railroad easement were preempted by 49 U.S.C. § 10501(b),
20

1170738
where the disputes involved "the application of state property
law and properly are before the state court").

In the

Allegheny Valley case, the landowner purchased a parcel of
land subject to a railroad's right-of-way; the railroad had
acquired

the

right-of-way

from

another

railroad

via

a

quitclaim deed. The landowner filed a state-court action
seeking a determination under Pennsylvania law as to the width
and location of the property claimed by him and the railroad,
as well as a determination whether the railroad owned the
property in fee simple or had only an easement.
declined

the

railroad's

request

for

a

The STB

declaratory

order

because the landowner's action involved questions of state
property law that would be best handled by state courts.
Again, the STB's decisions express an unwillingness to accept
jurisdiction of matters involving state-property issues even
when railroad companies attempt to invoke the STB's exclusive
jurisdiction. See also Ingredion Incorporated–-Petition for
Declaratory Order, STB Finance Docket No. 36014 (STB September
30, 2016), where the STB declined to issue a declaratory order
when the case arose from a property dispute originating in
state court concerning the application of state property law
on the ground that those are questions that the state court

21

1170738
should resolve--"questions of [state] property law generally
are more appropriately decided by [state] courts."
4.

Sufficiency of the Evidence –- Abandonment

Alternatively, the Commission argues that the trial court
erred in refusing to grant it a new trial because, it says,
there

was

no

evidence

indicating

that

the

railroad

had

abandoned its interest in the right-of-way before it conveyed
the property to the Commission by quitclaim deed. It is
undisputed that, at all times relevant to this appeal, the
rail line fell into disrepair and had not ben used for many
years. The trial court stated in its order that the character
of the right-of-way was changed when the railroad conveyed its
interests in it to the Commission and that both the failure of
the railroad to construct an essential trestle and the removal
of the rails indicated an abandonment of the right-of-way and
rendered the specific purpose of the easement impossible.
Thus,

the

trial

court

held

that

the

right-of-way

was

extinguished by operation of law, causing title to the rightof-way to vest with Eula. In Chatham v. Blount County, 789 So.
2d 235, 241 (Ala. 2001), this Court stated explained:
"As a general rule, one holding an easement cannot
change the character of that easement, Blalock v.
Conzelman, 751 So. 2d 2 (Ala. 1999), or 'enlarge
upon [that] easement for other purposes.' Roberts v.
22

1170738
Monroe, 261 Ala. 569, 577, 75 So. 2d 492, 499
(1954). Specifically as to a railroad easement, this
Court has held that such an easement was limited in
use to railroad purposes. Nashville, C. & St. L. Ry.
v. Karthaus, 150 Ala. 633, 43 So. 791 (1907); West
v. Louisville & N. R.R., 137 Ala. 568, 34 So. 852
(1903). An easement granted for a specific purpose
is deemed abandoned when its owner '"'by his own act
renders the use of the easement impossible, or
himself obstructs it in a manner inconsistent with
its further enjoyment.'"' Byrd Cos. v. Smith, 591
So. 2d 844, 847 (Ala. 1991) (quoting Polyzois v.
Resnick, 123 Neb. 663, 668, 243 N.W. 864, 866 (1932)
(quoting treatise)). See also Tatum v. Green, 535
So. 2d 87, 88 (Ala. 1988) ('[A]n easement given for
a specific purpose terminates as soon as the purpose
ceases to exist, is abandoned, or is rendered
impossible of accomplishment.')."
The Commission contends that there was no evidence before
the trial court indicating that the railroad had removed the
tracks and ties from the railroad corridor. Notably, there is
nothing in the trial transcript indicating that the tracks and
ties had been removed from the railroad corridor.

However,

the record does indicate that the parties had been before the
court on at least two other occasions; those transcripts are
not before us.

In any event, we conclude that the trial court

had sufficient evidence before it to determine that the
railroad intended to abandon its interest in the right-of-way.
The trial court had before it pictures of a train trestle that
had burned in January 2007; the railroad never rebuilt that
trestle, thereby making the specific purpose of the right-of23

1170738
way, i.e., operation of a railroad, impossible. The evidence
of intent to abandon is further bolstered by the railroad's
actions of negotiating with the Commission to sell all of its
interest in the right-of-way for use as a recreational trail.
See, e.g., Lawson v. State, 107 Wash. 2d 444, 452, 730 P.2d
1308, 1313 (1986)(holding that, where deed conveyed right-ofway for railroad purposes only, change in use from "Rails to
Trails" constituted abandonment).

Accordingly, the trial

court did not err in concluding that the easement reserved to
the railroad by a right-of-way as provided in the quitclaim
deed conveying the property to Charles lapsed by nonuse and
was thus extinguished by operation of law, leaving nothing for
the railroad to convey to the Commission.
IV.

Conclusion

Based on the foregoing, the judgment of the trial court
is due to be affirmed.
AFFIRMED.
Bolin, Wise, Mendheim, and Mitchell, JJ., concur.
Bryan, J., concurs in the result.
Parker, C.J., and Shaw and Stewart, JJ., dissent.

24

1170738
PARKER, Chief Justice (dissenting).
I reluctantly dissent.

The rule of law requires that we

cannot ignore the federal statute, the United States Supreme
Court's interpretation of it, and this Court's precedent in
Mobile & Gulf R.R. v. Crocker, 455 So. 2d 829 (Ala. 1984).
When we interpret an express-preemption

clause in a

federal statute, we must "'focus on the plain wording of the
clause.'"
1209,

1213

Norfolk Southern Ry. v. Goldthwaite, 176 So. 3d
(Ala.

2015)

(quoting

CSX

Transp.,

Inc.

v.

Easterwood, 507 U.S. 658, 664 (1993)).

The statutory scheme

underlying

gives

the

Rails-to-Trails

Act

the

Surface

Transportation Board ("the STB") exclusive jurisdiction over
the "abandonment[] or discontinuance" of a rail line.

49

U.S.C. § 10501(b)(2). Although "[s]tate law generally governs
the disposition of reversionary interests, ... [the STB has]
'exclusive

and

abandonments."

plenary'

jurisdiction

to

regulate

Preseault v. ICC, 494 U.S. 1, 8 (1990).

Thus, the federal courts have repeatedly held that "there
could be no abandonment until authorized by federal law."
Barclay v. United States, 443 F.3d 1368, 1374 (Fed. Cir.
2006); see Jackson v. United States, 135 Fed. Cl. 436, 443

25

1170738
(2017) ("The Trails Act prevents a common law abandonment of
the railroad right-of-way from being effected, thus precluding
state law reversionary interests from vesting." (emphasis
added)); Preseault v. ICC, 853 F.2d 145, 150 (2d Cir. 1988)
("Until the [STB] issues a certificate of abandonment, the
railway property remains subject to the [STB's] jurisdiction,
and state law may not cause a reverter of the property.");
National Wildlife Fed'n v. ICC, 850 F.2d 694, 704 (D.C. Cir.
1988) ("Nor may state law cause a reverter of a right-of-way
prior to an [STB]-approved abandonment.").
Moreover,

this

Court

has

already

decided

the

issue

whether a state court has "subject matter jurisdiction of an
abandonment of a railroad right-of-way, or ... [whether] the
question of abandonment [is] pre-empted by ... 49 U.S.C. §
10501 et seq."

Crocker, 455 So. 2d at 830.

After reasoning

that the "act is among the most pervasive and comprehensive of
federal regulatory schemes," the Court held that "the [STB]
has exclusive jurisdiction to determine whether there was an
abandonment of the railroad right-of-way."

Id. at 832, 834.

Because Crocker squarely addressed preemption of the issue of
abandonment, I am unpersuaded that Crocker is distinguishable

26

1170738
based on the vagaries of how or when the issue arises in the
state court.

I am also not convinced that the prior denials

of relief by the STB are relevant here, because those denials
either addressed legal issues not within the scope of 49
U.S.C. § 10501(b)(2) or simply declined to rule on preemption.
Therefore, this Court should reverse the circuit court's
judgment and remand the case with directions to dismiss the
plaintiffs' action.
Nevertheless, although I recognize that the Rails-toTrails Act preempts Alabama law, I am concerned that the Act
violates

landowners'

fundamental

rights

of

contract

and

property. When the railroad reserved an easement over Charles
W. Boyles's property, it negotiated for the right to use the
easement for railroad operations.

The railroad did not

negotiate for a public recreational trail.

The United States

Court of Appeals for the Federal Circuit has recognized this
disparity in anticipated use, noting that "[i]t is difficult
to imagine that either party to the original transfers had
anything

remotely

in

recreational trail."

mind

that

would

resemble

a

public

Preseault v. United States, 100 F.3d

27

1170738
1525, 1543 (Fed. Cir. 1996).

Comparing the two uses, the

court observed:
"When the easements here were granted ...
specifically for transportation of goods and persons
via railroad, could it be said that the parties
contemplated that a century later the easements
would be used for recreational hiking and biking
trails, or that it was necessary to so construe them
in order to give the grantee railroad that for which
it bargained? We think not. Although a public
recreational trial could be described as a roadway
for the transportation of persons, the nature of the
usage is clearly different. In the one case, the
grantee is a commercial enterprise using the
easement in its business, the transport of goods and
people for compensation. In the other, the easement
belongs to the public, and is open for use for
recreational purposes, which happens to involve
people engaged in exercise or recreation on foot or
on bicycles."
100 F.3d at 1542-43.
Other courts have similarly noted that "[r]ecreational
hiking, jogging and cycling are not connected with railroad
use in any meaningful way."

Glosemeyer v. United States, 45

Fed. Cl. 771, 779 (2000); see also Harley-White v. United
States, 129 Fed. Cl. 548, 556 (2016) ("Because the easements
were held for a railroad purpose, the transformation of the
right-of-way into a recreational trail goes beyond the scope
of the easements ...."); Lawson v. State, 107 Wash. 2d 444,
451, 730 P.2d 1308, 1312 (1986) ("[A] hiking and biking trail
28

1170738
is not encompassed within a grant of an easement for railroad
purposes only."); Toews v. United States, 376 F.3d 1371, 137677

(Fed.

Cir.

2004)

("[U]se

of

these

easements

for

a

recreational trail –- for walking, hiking, biking, picnicking,
frisbee

playing,

with

newly-added

tarmac

pavement,

park

benches, occasional billboards, and fences to enclose the
trailway –- is not the same use made by a railroad, involving
tracks, depots, and the running of trains. ...

Some might

think it better to have people strolling on one's property
than to have a freight train rumbling through. But that is not
the point.

The landowner's grant authorized one set of uses,

not the other.").

More than a slight alteration, the Rails-

to-Trails Act creates "a new easement for a new use –- for
recreational trail use."

Hornish v. King Cty., 899 F.3d 680,

696 (9th Cir. 2018).
The Federal Circuit has also acknowledged that "different
uses create different burdens."

Toews, 376 F.3d at 1376.

"It is one thing to have occasional railroad trains
crossing one's land. Noisy though they may be, they
are limited in location, in number, and in frequency
of
occurrence.
...
When
used
for
public
recreational purposes, however, in a region that is
environmentally attractive, the burden imposed by
the use of the easement is at the whim of many
individuals, and ... has been impossible to contain
29

1170738
in numbers or to keep strictly within the parameters
of the easement."
Preseault v. United States, 100 F.3d at 1543.
This

use

of

the

Rails-to-Trails

landowners' expectations.

Act

thus

thwarts

Before the Act, landowners "would

have been secure in the knowledge ... that the only use that
could be made of their lands were those related to the
operation of a railroad."

Glosemeyer, 45 Fed. Cl. at 781.

However, "[s]olely because of the operation of the Rails-toTrails Act," the lands are "now burdened by new easements -for recreational trails.

Whereas previously the [landowners]

could exclude all but the railroads from use of the right-ofways, now the public at large has access."
the

Act

strong-arms

landowners

into

a

Id.

In this way,

new,

unnegotiated

agreement -- a new contract for which they were not given
consideration and to which they did not assent.
The
property

Rails-to-Trails
rights.

The

Act

also

importance

violates
of

a

those

landowner's
rights

was

emphasized by those whose ideas helped organize the English
common law, inspire American independence, and create the
United States Constitution. John Locke explained: "The reason
why men enter into society is the preservation of their
30

1170738
property .... [W]henever the legislators endeavor to take away
and

destroy

the

property

of

the

people,

...

they

themselves into a state of war with the people ...."

put
John

Locke, Concerning Civil Government, Second Essay 75-76 (Robert
Maynard Hutchins ed., Encyclopedia Britannica, Inc., 1952)
(1690).

The English jurist William Blackstone called the

right to property "that sole and despotic dominion which one
man claims and exercises over the external things of the
world, in total exclusion of the right of any other individual
in the universe."

2 William Blackstone, Commentaries *2.

During the Founding Era, James Madison, Father of the
Constitution,

echoed

this

Constitutional Convention.

right

before

the

Virginia

He argued that "the rights of

persons, and the rights of property, are the objects, for the
protection

of

which

Government

was

instituted."

James

Madison, "Speech in the Virginia Constitutional Convention"
(1829), in James Madison: Writings at 824 (Jack N. Rakove ed.,
Library

of

America

1999).

Madison

also

wrote

that

"[g]overnment is instituted to protect property of every sort;
... [T]hat alone is just government, which impartially secures
to every man, whatever is his own." James Madison, "Property"

31

1170738
(1792), in Madison: Writings at 515.

Conversely, Madison

warned that it "is not a just government, nor is property
secure under it, where the property which a man has in his
personal safety and personal liberty, is violated by arbitrary
seizures of one class of citizens for the service of the
rest."

Id. at 516.

The Rails-to-Trails Act violates a landowner's property
rights by taking his land and giving it to a railroad company
for use by the public at large.

Specifically, the Act "takes

a landowner's right to use or sell his or her reversionary
interest and gives this right to a railroad company.

The

railroad company now has the right ... to sell an interest in
the landowner's property." Mark F. Hearne II, Lindsay Brinton
& Meghan Largent, The Trails Act: Railroading Property Owners
and Taxpayers for more than a Quarter Century, 45 Real Prop.
Tr. & Est. J. 115, 162 (2010).

Where once the owner held the

full bundle of sticks (minus an easement allowing a railroad
to operate), the Act "takes this entire bundle of sticks from
the owner and gives them to the railroad .... The landowner is
left with nominal title ...."

Id.

As a consequence, the

landowner may be stuck with increased crime from those using

32

1170738
the trail, loss of privacy, decrease in property values, and
litigation costs.

See Emily Drumm, Comment, Addressing the

Flaws of the Rails-to-Trails Act, 8 Kan. J.L. & Pub. Pol'y 158
(Spring 1999).
Notably,

the

Act

permits

the

whole

public

onto

a

landowner's property, terminating one of the most important
property rights: the right to exclude.

"In the bundle of

rights we call property, one of the most valued is the right
to sole and exclusive possession –- the right to exclude
strangers, or for that matter friends, but especially the
Government."

Hendler v. United States, 952 F.2d 1364, 1374

(Fed. Cir. 1991); see also Loretto v. Teleprompter Manhattan
CATV Corp., 458 U.S. 419, 435-36 (1982) ("The power to exclude
has traditionally been considered one of the most treasured
strands in an owner's bundle of property rights. ...

[T]he

permanent physical occupation of property forever denies the
owner any power to control the use of the property ....").
Compounding these violations of contract and property
rights, the rails-to-trails process does not require actual
notice to the landowner before conversion of the easement.
See National Ass'n of Reversionary Prop. Owners v. ICC, 70

33

1170738
F.3d 638 (D.C. Cir. 1995)(table).

Although the Act requires

notice of a railroad's intent to abandon a rail line, that
notice is not sufficient to apprise the landowner that the
easement will be converted to a recreational trail. Thus, the
Act essentially effects a taking without notice.
In all these ways, the Rails-to-Trails Act allows the
federal

government

Alabamians.

to

take

property

rights

away

from

"[T]he right to control one's property is a

sacred right which should not be taken away without urgent
reason."

Smith v. Smith, 254 Ala. 404, 409, 48 So. 2d 546,

549 (1950).

A recreational trail is not such a reason.

However, due to express federal preemption by the Rails-toTrails Act, the jurisdiction to address these violations of
fundamental contract and property rights lies exclusively in
the federal government.

34

1170738
SHAW, Justice (dissenting)
I respectfully dissent.

Under federal law, the Surface

Transportation Board ("the STB") has exclusive jurisdiction
over this action that seeks to quiet title to an allegedly
abandoned railroad easement.
The Interstate Commerce Commission Termination Act, 49
U.S.C. § 10101 et seq. ("the ICCTA"), established the STB and
gave

it

"exclusive

jurisdiction

over

certain

aspects

of

railroad transportation." Adrian & Blissfield R.R. v. Village
of

Blissfield,

550

F.3d

533,

539

(6th

Cir.

2008).

Additionally, "Congress intended to preempt state and local
laws that come within the [STB's] jurisdiction."

Texas Cent.

Bus. Lines Corp. v. City of Midlothian, 669 F.3d 525, 530 (5th
Cir. 2012).
local

The intent of the ICCTA to "preempt state and

regulation

of

railroad

transportation

has

been

recognized as broad and sweeping." Union Pac. R.R. v. Chicago
Transit Auth., 647 F.3d 675, 678 (7th Cir. 2011).

See also

New England Cent. R.R. v. Springfield Terminal Ry., 415 F.
Supp. 2d 20, 27 (D. Mass. 2006) ("Courts have consistently
found that state law that directly or indirectly regulates
railroads is preempted by § 10501(b).").

35

1170738
The main opinion holds that the STB's "exclusive and
preemptive jurisdiction" is limited by its "specific reason":
to

prevent

"economic

regulation"

by

transportation. ___ So. 3d at ___.

the

states

of

rail

Numerous federal court

decisions, however, have rejected the idea that the ICCTA is
limited only to "economic" regulation.
regulation

has

been

described

as

the

Although economic
"core

of

ICCTA

preemption," its preemptive effect "may not be limited to
state economic regulation."

Elam v. Kansas City S. Ry., 635

F.3d 796, 806 (5th Cir. 2011) (footnote omitted).

The ICCTA

"does not preempt only explicit economic regulation.

Rather,

it preempts all 'state laws that may reasonably be said to
have the effect of managing or governing rail transportation,
while permitting the continued application of laws having a
more remote or incidental effect on rail transportation.'"
New York Susquehanna & W. Ry. v. Jackson, 500 F.3d 238, 252
(3d Cir. 2007) (quoting Florida E. Coast Ry. v. City of W.
Palm Beach, 266 F.3d 1324, 1331 (11th Cir. 2001)).

See also

Wisconsin Cent. Ltd. v. City of Marshfield, 160 F. Supp. 2d
1009, 1014 (W.D. Wis. 2000) ("The ICCTA expressly preempts

36

1170738
more than just state laws specifically designed to regulate
rail transportation.").
In City of Auburn v. United States, 154 F.3d 1025 (9th
Cir. 1998), a city challenged the STB's finding that the ICCTA
preempted
arguing

state

that

and

"the

local
ICCTA

environmental
legislative

permitting

history

laws,

establishes

Congress' intent to preempt only economic regulation of rail
transportation, not the traditional state police power of
environmental review."

154 F.3d at 1029.

The city, pointing

to legislative history, stated in its brief that the local
environmental
regulations"

regulations
but

rather

at

issue

"'essential

were

not

local

"economic

police

power

required to protect the health and safety of citizens....'"
154 F.3d at 1029.
The court noted that "there is nothing in the case law
that supports [the city's] argument that, through the ICCTA,
Congress only intended preemption of economic regulation of
the railroads."

154 F.3d at 1030.

Further, it stated: "[I]f

local authorities have the ability to impose 'environmental'
permitting regulations on the railroad, such power will in
fact

amount

to

'economic

regulation'

37

if

the

carrier

is

1170738
prevented from constructing, acquiring, operating, abandoning,
or discontinuing a line."

154 F.3d at 1031.

Thus, contrary to the main opinion, the preemptive effect
of the ICCTA and the jurisdiction it provides to the STB is
not limited to "economic" regulation.
In addressing whether the ICCTA preempts state-law claims
that rail lines have been abandoned, courts have looked to the
plain language of 49 U.S.C. § 10501(b), which states, in
pertinent part:
"(b) The jurisdiction of the [STB] over-"(1) transportation by rail carriers,
and the remedies provided in this part with
respect to rates, classifications, rules
(including car service, interchange, and
other operating rules), practices, routes,
services, and facilities of such carriers;
and
"(2) the construction, acquisition,
operation, abandonment, or discontinuance
of spur, industrial, team, switching, or
side tracks, or facilities, even if the
tracks are located, or intended to be
located, entirely in one State,
"is exclusive. Except as otherwise provided in this
part, the remedies provided under this part with
respect to regulation of rail transportation are
exclusive and preempt the remedies provided under
Federal or State law."

38

1170738
(Emphasis added.)
Under

the

ICCTA,

"transportation"

has

a

very

broad

meaning that includes "property ... regardless of ownership or
agreement concerning use." 49 U.S.C. § 10102(9)(A).
Pacific,

647

F.3d

at

678

("Congress

also

Union
defined

'transportation' to include railroad property, facilities, and
equipment 'related to the movement of passengers or property,
or both, by rail, regardless of ownership or an agreement
concerning use.' 49 U.S.C. § 10102(9).").
below,

the

STB

has

exclusive

Thus, as discussed

jurisdiction

over

railroad

property and the issue of abandonment of that property--and
any remedy provided by state law--is preempted.
In the context of attempts to use state law to obtain
property from railroads, such as by condemnation or adverse
possession, federal courts, in applying § 10501(b), have
explicitly held that such claims are preempted and fall under
the jurisdiction of the STB.

In Soo Line R.R. v. City of St.

Paul, 827 F. Supp. 2d 1017 (D. Minn. 2010), the court held
that a city's proposed condemnation action seeking an easement
over railroad property that ran along a rail line "falls
squarely within the definition of 'transportation' as defined

39

1170738
by '49 U.S.C. § 10102(9),'" despite the city's argument that
the easement it sought would not interfere with railroad
operations.

827

F.

Supp.

2d

at

1021.

The

proposed

condemnation, the court held, "would be an act seeking to
control" the property and was thus "a form of regulation" that
fell "into the broad category of actions that are per se
preempted under the ICCTA."

827 F. Supp. 2d at 1022.

See

also Union Pacific, 647 F.3d at 683 (holding that a state-law
action to condemn an easement over a portion of a railroad's
property that was being leased to the plaintiff was "preempted
because it prevents and unreasonably interferes with railroad
transportation" on the property); B & S Holdings, LLC v. BNSF
Ry., 889 F. Supp. 2d 1252, 1260 (E.D. Wash. 2012) (holding
that a quiet-title action alleging that property along a rail
line had been adversely possessed under state law "necessarily
involve[d] the regulation of rail transportation"); and 14500
Ltd. v. CSX Transp., Inc. (No. 1:12CV1810, March 14, 2013)
(N.D. Ohio 2013) (not reported in F. Supp. 2d) (holding that
the ICCTA preempted an action to quiet title over railroad
property that had allegedly been adversely possessed).

40

1170738
In the context of allegations identical to the one in the
instant case, i.e., that railroad easements or rights-of-way
were abandoned, courts have held that the ICCTA preempts
state-law actions.

In Cedarapids, Inc. v. Chicago, Central &

Pacific R.R., 265 F. Supp. 2d 1005 (N.D. Iowa 2003), the
plaintiff contended that a railroad had abandoned a section of
a rail-line easement by ceasing operations and, thus, under
Iowa state law, that the property reverted to the plaintiff.
265 F. Supp. 2d at 1007.

After discussing the language of 49

U.S.C. § 10501(b) and the broad definition of "property" under
49 U.S.C. § 10102(9)(A), the court stated that "the ICCTA
grants to the STB exclusive jurisdiction over nearly all
matters of rail regulation."

265 F. Supp. 2d at 1012.

Such

regulation included not only state "economic" regulation, but
also regulation of the abandonment of rail lines, which
included the plaintiff's state-law suit to declare a rail line
abandoned:
"The Court's review of the nature and purpose of
the ICCTA, as evidenced by both the legislative
history and the plain language of the statute, leads
the Court to conclude that, in enacting the ICCTA,
Congress intended to occupy completely the field of
state economic regulation of railroads. The Court
also finds that the ICCTA preempts state regulation
of the abandonment of lines of railroad. The ICCTA's
41

1170738
grant of exclusive jurisdiction to the STB over the
abandonment of tracks and its expansion of the types
of tracks within this exclusive jurisdiction to
include wholly intrastate spur and industrial tracks
indicates that Congress intended for the abandonment
of all types of tracks to be under the STB's
jurisdiction. This comports with Congress' stated
desire of deregulation of the railroad industry by
ensuring that states do not impose regulations which
conflict with or undermine those set forth in the
ICCTA and imposed by the STB with respect to the
abandonment of tracks."
265 F. Supp. 2d at 1013 (emphasis added).

See also Wedemeyer

v. CSX Transp., Inc. (No. 2:13–cv–00440–LJM–WGH, Oct. 20,
2015) (S.D. Ind. 2015) (not reported in F. Supp. 2d) (holding
that "the term 'regulate' does not only refer to a state
regulation or state action; rather it refers to controls or
limitations of any kind" and, thus, that an action to quiet
title alleging that a railroad had abandoned an easement was
an attempt to use state law to "regulate" the railroad's use
of

the

easement),

and

Groh

v.

Union

Pacific

R.R.

(No.

17-00741-CV-W-ODS, Dec. 1, 2017) (W.D. Mo. 2017) (not reported
in F. Supp. 2d) (holding that a state-law action alleging that
a railroad had abandoned its easement fell within the scope of
the ICCTA).
This concept is not new in Alabama.
R.R.

v.

Crocker,

455

So.

2d
42

829

(Ala.

In Mobile & Gulf
1984),

certain

1170738
landowners

sought

a

judgment

declaring

that

a

railroad

easement across their property had been abandoned because the
railroad

"ceased

all

operation

of

trains

right-of-way in dispute."

455 So. 2d at 831.

held,

STB's

however,

that

the

predecessor

across

the

This Court
agency,

the

Interstate Commerce Commission, "had exclusive jurisdiction to
determine whether there was an abandonment of the railroad
right-of-way."

455 So. 2d at 834.

The main opinion attempts

to distinguish Crocker by noting a distinction in the way the
easement in Crocker was obtained as compared to the easement
in the instant case.

However, 49 U.S.C. § 10501(b) does not

provide that its application is contingent on how a railroad
obtains

property

initially.

Furthermore,

no

proceedings

before the STB are required to "invoke" its jurisdiction; the
ICCTA itself preempts remedies under state law, and the STB's
jurisdiction is "exclusive."

Grosso v. Surface Transp. Bd.,

804 F.3d 110, 114 (1st Cir. 2015) ("Whether or not the [STB]
is

exercising

transportation,

its
state

regulatory
and

local

authority
laws

over

the

governing

such

transportation are generally preempted." (footnote omitted)).
Under the plain language of 49 U.S.C. § 10501(b), the
claims in the underlying action are preempted by the ICCTA and
43

1170738
exclusive jurisdiction of the action rests with the STB.
Under

Crocker,

the

trial

court

jurisdiction in this case.
Stewart, J., concurs.

44

lacked

subject-matter

